LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5505 Connecticut Avenue, NW #307
Washington, DC 20015

February 19, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-646: ALAINA ADKINS AND MAXIM HEALTHCARE SERVICES, INC.
MICHAEL COLLENS

V.

JESSE

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Reply to Opposition
to Petition for a Writ of Certiorari referenced above contains 1,501 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 19th day of February 2020.

